APPENDIX A

TABLE OF CONTENTS
Appendix A- United States v. Zendejas, 809 F. App’x 459 (9th Cir. 2020)

Case: 19-50103, 06/19/2020, ID: 11727241, DktEntry: 44-1, Page 1 of 5

FILED

NOT FOR PUBLICATION

JUN 19 2020

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
FRANCISCO JAVIER ZENDEJAS,

No.

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

19-50103

D.C. No.
3:18-cr-03812-LAB-1
MEMORANDUM*

Defendant-Appellant.
Appeal from the United States District Court
for the Southern District of California
Larry A. Burns, Chief District Judge, Presiding
Argued and Submitted June 5, 2020
Pasadena, California
Before: RAWLINSON and N.R. SMITH, Circuit Judges, and KORMAN,**
District Judge.
This case arose out of a tip to the United States Border Patrol that Francisco
Zendejas was bragging about smuggling drugs from Mexico across the California
border. A few hours later, Zendejas drove to the Otay Mesa Port of Entry and was

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
*

The Honorable Edward R. Korman, United States District Judge for
the Eastern District of New York, sitting by designation.
**

(1 of 9)

(2 of 9)

Case: 19-50103, 06/19/2020, ID: 11727241, DktEntry: 44-1, Page 2 of 5

recognized and stopped by Border Patrol based on the tip. In the spare tire of his car,
agents discovered a GPS tracker and 21 packages of heroin and methamphetamine
valued at $215,000. Zendejas first denied knowledge of the drugs, but ultimately
confessed to knowingly transporting them across the border for money. He was
convicted of importing those drugs in violation of 21 U.S.C. §§ 952 and 960.
Zendejas appeals. We have jurisdiction under 28 U.S.C. § 1291, and we affirm.
1.

The district court did not improperly admit the trial testimony of two

Border Patrol agents that the use of GPS trackers was common and increasing in
drug-courier cases. Zendejas argues that the agents’ testimony was unnoticed expert
testimony, based upon inadmissible hearsay, and improper drug-courier profile
evidence. While we are not persuaded by these arguments, we also find that the
admission of this testimony did not prejudice Zendejas. Indeed, this testimony was
consistent with, and did not undermine, the defense theory that evidence of hidden
GPS devices in unknowing-drug-courier cases supports the exculpatory inference
that Zendejas himself was an unknowing drug courier.
2.

The district court did not abuse its discretion in refusing to compel

discovery regarding drug-courier cases in which a GPS tracker was found with the
drugs, and for this reason the government had concluded the courier was unknowing.
Rule 16 provides, in relevant part, that “the government must permit the defendant
to inspect and to copy or photograph books, papers, documents, data, photographs,

2

19-50103

(3 of 9)

Case: 19-50103, 06/19/2020, ID: 11727241, DktEntry: 44-1, Page 3 of 5

tangible objects, buildings or places, or copies or portions of any of these items, if
the item is within the government's possession, custody, or control” and “the item is
material to preparing the defense.” Fed. R. Crim. P. 16(E). “[T]he government has
no obligation to produce information which it does not possess or of which it is
unaware. It has an obligation to turn over only material . . . that it has in its
possession.” United States v. Cano, 934 F.3d 1002, 1023 (9th Cir. 2019) (internal
quotation marks and citation omitted). Because Zendejas failed to “present facts
which would tend to show that the Government [was] in possession of [the
requested] information,” he failed to meet his burden to compel discovery under
Rule 16(a)(1)(E)(i). See United States v. Mandel, 914 F.2d 1215, 1219 (9th Cir.
1990).
3.

After the district court ruled, on reconsideration of the issue, that

Zendejas had not shown the requested information was material, the court did not
plainly err in deciding that it would reconsider compelling discovery of the requested
information if Zendejas submitted a declaration stating that he was unaware of the
drugs and the GPS tracker. Zendejas contends that this forced him to choose between
his ability to prepare a defense, on the one hand, and his right not to be a witness
against himself, on the other. Zendejas did not object to this condition on the ground
that it violated his right against self-incrimination.
Zendejas’s reliance on Simmons v. United States, 390 U.S. 377 (1967), is
3

19-50103

(4 of 9)

Case: 19-50103, 06/19/2020, ID: 11727241, DktEntry: 44-1, Page 4 of 5

misplaced. In Simmons, the Supreme Court held that when a defendant provides
testimony in order to vindicate his Fourth Amendment right, that testimony cannot
be admitted against him. Id. at 394. Moreover, if Zendejas was concerned that the
declaration could be used against him, he could have avoided the problem by
requesting in camera review. Cf. United States v. Eshkol, 108 F.3d 1025, 1027–28
(9th Cir. 1997) (finding the fact that the defendant failed “to request an in camera
proffer, which could have prevented the government from learning the defense
theory, support[ed] [the] conclusion” that the defendant was not forced to sacrifice
his Fifth Amendment rights).
4.

The district court did not abuse its discretion by declining to compel

the prosecution to disclose the identity of the tipster. The prosecution has a “limited”
privilege “to withhold from disclosure the identity of persons who furnish
information of violations of law to officers charged with enforcement of that law.”
Roviaro v. United States, 353 U.S. 53, 59–60 (1957). To overcome this privilege, “a
defendant must show a need for the information, and in doing so, must show more
than a ‘mere suspicion’ that the informant has information which will prove ‘relevant
and helpful’ to his defense, or that will be essential to a fair trial.” United States v.
Henderson, 241 F.3d 638, 645 (9th Cir. 2000) (citation omitted). The district court
properly concluded that Zendejas failed to meet this burden. Indeed, in United States
v. Buras, we held that disclosure was not justified by “unfounded suspicion or
4

19-50103

(5 of 9)

Case: 19-50103, 06/19/2020, ID: 11727241, DktEntry: 44-1, Page 5 of 5

conjecture,” particularly where, as here, there is no indication in the record that the
informant was not “a witness to” or “participated in” the crime. 633 F.2d 1356, 1360
(9th Cir. 1980).
5. Finally, Zendejas argues that the prosecutor committed misconduct in his
closing argument. We disagree. The prosecutor was permissibly commenting on the
power of the common-sense inferences the jury could make from facts in evidence.
In any event, his comments do not constitute plain error warranting reversal. See
United States v. Alcantara-Castillo, 788 F.3d 1186, 1190–91 (9th Cir. 2015).
AFFIRMED.

5

19-50103

